NO. 20-_____

In the
Supreme Court of the United States
DEBORAH HOLTER,

Petitioner,
v.
THE CITY OF MANDAN,
a Political Subdivision of the State of North Dakota,

Respondent.
__________________________

On Petition for a Writ of Certiorari to the
Supreme Court of North Dakota
PETITION FOR A WRIT OF CERTIORARI

GREGORY C. LARSON

COUNSEL OF RECORD

WILLIAM C. BLACK
LARSON LATHAM HUETTL LLP
1100 COLLEGE DRIVE
P.O. BOX 2056
BISMARCK, ND 58502-2056
(701) 223-5300
GLARSON@BISMARCKLAW.COM
COUNSEL FOR PETITIONER

DECEMBER 18, 2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
QUESTIONS PRESENTED
1. By paying a nominal portion of the total costs
of an improvement for which the remaining costs will
be specially assessed against private properties, does
a governmental entity properly consider the special
benefits accruing to an assessed property, as required
by Village of Norwood v. Baker.
2. Does a state court of last resort commit an
abuse of discretion and/or violate the Due Process
Clause of the Fourteenth Amendment to the United
States Constitution by deciding an appeal on issues
or facts which were never raised by the parties and
to which neither party was given the opportunity to
respond.

ii
PARTIES TO THE PROCEEDINGS
Petitioner
●

Deborah Holter, petitioner on review
(“Petitioner”), was the petitioner-appellant
in the action in the Morton County District
Court, State of North Dakota and Supreme
Court of North Dakota below.

Respondent
●

The City of Mandan, a Political Subdivision
of the State of North Dakota, respondent
on review (“the City”), was the respondentappellee in the action in the Morton County
District Court, State of North Dakota and
Supreme Court of North Dakota below.

iii
LIST OF PROCEEDINGS
Supreme Court of North Dakota
Supreme Court No. 20190277
Deborah Holter, Petitioner and Appellant v.
City of Mandan, a political subdivision of the State of
North Dakota, Respondent and Appellee.
Opinion Date: July 22, 2020
Rehearing Order Date: September 21, 2020
_________________
State of North Dakota, County of Morton,
South Central Judicial District
Case No. 30-2017-CV-01003
Deborah Holter, Appellant v.
City of Mandan, a political subdivision of the State of
North Dakota, Appellee
Memorandum Opinion Date: June 28, 2019

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDINGS ......................... ii
LIST OF PROCEEDINGS ......................................... iii
TABLE OF AUTHORITIES ..................................... vii
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED .................................. 2
STATEMENT OF THE CASE .................................... 4
A. Introduction ...................................................... 4
B. Statement of Facts ........................................... 6
REASONS FOR GRANTING THE PETITION ....... 14
I.

TO AVOID FURTHER VIOLATIONS OF THE
FIFTH AMENDMENT’S TAKINGS CLAUSE, THIS
COURT SHOULD CLARIFY THAT SPECIAL
ASSESSMENTS MUST CONSIDER THE VALUE
OF THE SPECIAL BENEFITS TO A PARTICULAR
PARCEL OF PROPERTY INDEPENDENTLY OF
THE AMOUNTS ASSESSED TO THAT PARCEL
OF PROPERTY OR THE COSTS OF THE
PROJECT BORNE BY THE ASSESSING
AUTHORITY ...................................................... 14

v
TABLE OF CONTENTS – Continued
Page
II. THE SUPREME COURT OF NORTH DAKOTA
ABUSED ITS DISCRETION BY ACTING AS AN
ADVOCATE FOR THE CITY OF MANDAN AND,
IN DOING SO, VIOLATED THE DUE PROCESS
CLAUSE OF THE FOURTEENTH AMENDMENT TO
THE UNITED STATES CONSTITUTION AND THE
FEDERAL PRECEDENT RECENTLY ARTICULATED IN UNITED STATES V. SINENENG-SMITH.. 20
A. Due Process Concerns............................... 20
B. Public Policy Concerns ............................. 21
C. Federal Precedent ..................................... 24
CONCLUSION.......................................................... 27

vi
TABLE OF CONTENTS – Continued
Page
APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the Supreme Court of North Dakota
(July 22, 2020) .................................................... 1a
Dissenting Opinion of Justice Tufte ................ 13a
Memorandum Opinion on Appeal of the District
Court of North Dakota, South Central
Judicial District (June 28, 2019) ..................... 21a
Order on Return of the District Court of North
Dakota, South Central Judicial District
(September 24, 2018)........................................ 35a
Order of the District Court of North Dakota,
South Central Judicial District
(March 20, 2018) ............................................... 40a
REHEARING ORDER
Order of the Supreme Court of North Dakota
Denying Petition for Rehearing
(September 21, 2020)........................................ 47a
Dissenting Opinion of Chief Justice Jensen.... 49a

vii
TABLE OF AUTHORITIES
Page
TABLE OF AUTHORITIES

CASES

Am. Mfrs. Mut. Ins. Co. v. Sullivan,

526 U.S. 40, 119 S.Ct. 977 (1999) ........................ 21

Carducci v. Regan,

714 F.2d 171 (D.C. Cir. 1983) ............................. 24

Dahm v. Stark County Board of County
Commissioners, 841 N.W.2d 416

(N.D. 2013)......................................................... 17

Greenlaw v. United States,

554 U.S. 237 (2008) ................................ 24, 25, 26

United States v. Samuels,

808 F.2d 1298 (CA8 1987) ................................. 25

United States v. Sineneng-Smith,

140 S.Ct. 1575 (2020) ......................................... 25

Village of Norwood v. Baker,

172 U.S. 269 (1898) ................................... passim

CONSTITUTIONAL PROVISIONS
U.S. Const. amend. V .................................................. 2
U.S. Const. amend. XIV ......................................... i, 21
STATUTES
28 U.S.C. § 1257 .......................................................... 1
N.D.C.C. § 40-23-07 .............................................. 2, 19

viii
TABLE OF AUTHORITIES – Continued
Page
JUDICIAL RULES
Fed. R. App. P. 28(a)(4)............................................. 23
REGULATIONS
City of Mandan Special Assessment Policy,
Benefit Determination and Distributions,
Adopted by the Mandan City Commission
on January 19, 2016 .................................. passim
MISCELLANEOUS
McQuillin Mun. Corp. § 38:6 (3d ed.) ....................... 16

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Deborah Holter, respectfully petitions
for a writ of certiorari to review the judgment of the
Supreme Court of North Dakota in this case.

OPINIONS BELOW
The June 28, 2019 Memorandum Opinion on
Appeal of the Morton County District Court, State of
North Dakota, South Central Judicial District (App.
21a) is unreported. The July 22, 2020 Opinion of the
Supreme Court of North Dakota (App.1a), as well as
the Dissent on the Order of the Supreme Court of North
Dakota Denying Petition for Rehearing filed September 21, 2020 (App.49a), are reported at 948 N.W.2d 858.

JURISDICTION
The opinion of the Supreme Court of North
Dakota was entered on July 22, 2020. A petition for
rehearing was denied on September 21, 2020. This
Court’s jurisdiction is invoked under 28 U.S.C. § 1257.

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const., amend. V
The Takings Clause of the Fifth Amendment to
the U.S. Constitution states: “nor shall private
property be taken for public use, without just
compensation.”
U.S. Const., amend. XIV § 1
The Due Process Clause of the Fourteenth
Amendment to the U.S. Constitution states: “nor
shall any State deprive any person of life liberty,
or property, without due process of law.”
N.D.C.C. § 40-23-07
Section 40-23-07 of the North Dakota Century
Code states, in relevant part,
[t]he commission shall determine the amount
in which each of the lots and parcels of land
will be especially benefited by the construction
of the work for which such special assessment
is to be made, and shall assess against each
of such lots and parcels of land such sum,
not exceeding the benefits, as is necessary
to pay its just proportion of the total cost of
such work, or of the part thereof which is to
be paid by special assessment.

3
City of Mandan Special Assessment Policy, Benefit
Determination and Distributions, Adopted by the
Mandan City Commission on January 19, 2016
The City of Mandan’s Special Assessment Policy
states the City’s formula for assessing properties
benefitted by an improvement. The applicable portion of the policy is as follows:
[3] Streets (local, collector and arterial) and
Alleys . . .
[3.1] The district boundaries are drawn to
include all properties benefiting from the
improvement.
[3.2] Typical benefit allocations on singlefamily, residential properties can be assessed
by determining a unit cost. The allocation is
based on a unit cost, if similar in size, by
applying an equal cost share to each parcel/lot
within the district. A unit cost may be determined by taking the total project costs and
dividing by the total lots within the district.
[3.3] If the single-family residential properties
vary greatly in size or front footage, the
units may be increased or a combination of
allowable methods may be used. For
calculations purposes, all effective areas
and front footages are provided by the City
Assessor’s office.
[3.4] Multi-family property may be special
assessed at a greater number of units proportionate to the properties use of the benefits
(apartments, duplexes, condominiums, twin-

4
homes and/or townhomes, mobile home parks/
manufactured homes).
[3.5] In districts containing strictly commercial
and industrial zoning (no residential or multifamily) special assessments are determined
by the area of the lot/parcel.
[3.6] Corner lots are assessed at a rate of onehalf the unit cost if only one street abutting
the lot/parcel is constructed or improved.
When the second street is constructed, onehalf the unit cost can be assigned to the lot
or parcel abutting that street thus allowing
equality amongst the surrounding properties.
[3.7] Benefits for agriculturally zone lands
within a district may be determined based
on the area of the parcel/tract of land.
[3.8] The full cost to pave, resurface, or
reconstruct public alleys can be assessed to
properties that either abut the alley or have
access to their property via the public alley.

STATEMENT OF THE CASE
A.

Introduction

This case arises out of a levy of special assessments
by the City against Petitioner’s privately owned property. North Dakota law, in accordance with Village of
Norwood v. Baker, 19 U.S. 269, 19 S.Ct. 187, and its
progeny, mandates that a local governing body’s
special assessment commission shall determine the

5
amount in which a parcel of land will be especially
benefited by an improvement project. This determination helps to ensure that the amount assessed to a
property will not exceed the benefit to that same
property. In this case, however, the City attempts to
shirk its statutory responsibility by using the same
formula to calculate both the benefit to the affected
parcels and the amounts assessed to those parcels.
Petitioner owns three contiguous and vacant lots
within the City of Mandan’s Street Improvement District No. 199, which was created by the City’s Board of
City Commissioners (the “Board”). (App.3a) The City’s
Special Assessment Commission (the “Commission”)
assessed Petitioner’s three lots a total amount of
$47,758.20. Id. Petitioner objected to these assessments;
believing that the amount assessed far exceeded the
benefit to her vacant lots. Id. Petitioner presented
evidence that her lots were worth approximately
$50,000.00, regardless of the improvement, as well
as evidence showing that she could have engaged the
same company to complete the improvements to her
lots at a fraction of the cost. (App.9a-10a). Despite
this evidence, and Petitioner’s contention that the
special assessment commission failed to make the
required finding of the value of the benefit to her
lots, the assessments were approved by the Commission and the Board. (App.3a)
As allowed by North Dakota law, Petitioner
appealed her special assessments to the district court
for Morton County, State of North Dakota. Id. Petitioner’s appeal stated that the Board and the Commission failed to find the value of the benefit to her
properties and that she had been assessed differently
than similarly situated property owners. Id. After twice

6
remanding the case to the Commission for additional
factual findings, the district court affirmed the assessments to Petitioner’s properties. Petitioner appealed
this ruling to the Supreme Court of North Dakota.
(App.3a-4a). After oral argument, a 3-2 majority of
the Supreme Court of North Dakota affirmed the district court’s decision. (App.1a). The dissenting justices
noted that the City had failed to use a separate
formula to determine the benefits and assessed
amounts to the affected parcels. (App.13a) The dissent further noted that the majority’s opinion used
facts and rationale that were never advanced by the
parties to the litigation. (App.19a-20a)
Petitioner filed a petition for rehearing, in part,
so she could address the rationale and argument that
the majority of the Supreme Court of North Dakota had
crafted on behalf of the City. Again, in a 3-2 decision,
the Supreme Court of North Dakota denied the petition.
(App.47a-48a). The minority filed a dissent stating that
the petition for rehearing should have been granted so
that Petitioner could have addressed the arguments
relied upon by the Supreme Court of North Dakota.
(App.49a-50a)
B.

Statement of Facts

In accordance with applicable provisions of the
North Dakota Century Code, in February 2015, a public
hearing was held with regard to repairs to certain
streets and alleys within the City of Mandan. (App.2a)
In March of 2015, the Board of City Commissioners
adopted resolutions creating Street Improvement District No. 199 and declaring the cost of the improvements
would be specially assessed against the properties in
the district which would be especially benefited by

7
project. Id. The improvement district contemplated
construction on streets between 4th Avenue Northeast
to Mandan Avenue and between Main Street and 3rd
Street Northeast in Mandan. Id. The total cost of the
project was estimated to be $3,653,297 with approximately five percent of the project being paid by city
sales tax. Id. The remainder was to be assessed to
the benefiting properties. Id.
The improvements actually cost $3,316,595.73.
Id. Of that amount, the City paid $225,000.00, and the
remaining cost of $3,091,595.73 was specially assessed
to the properties purported to be especially benefited
by the improvements. Id. In July 2017, the Mandan
Special Assessment Commission published a notice
of a meeting in August 2017 that contained the items
of expense of the improvement, allocation of a portion of the cost to the City, and the net amount to be
assessed. Id. The notice provided a list of properties
alleged to be especially benefited by the construction
performed in the project and the amounts to be
assessed. The notice stated:
We the undersigned, constituting the Special
Assessment Commission of the City of
Mandan do hereby certify that the following is
a true and correct list of the particular lots of
land which, in the opinion of the Commission,
are especially benefited by the construction
performed . . . showing the amount against
each lot or tract, the same is a true and
correct assessment of the property there in
described to the best judgement of the members of the Commission.
(App.3a)

8
In August 2017, the Special Assessment Commission, over Petitioner’s objection, approved the proposed
assessments against the especially benefited properties
and moved the decision to the Board for its consideration. Id. The Board approved the special assessments
in October 2017. Id.
Petitioner owns three undeveloped residential
lots in the improvement district. Each lot was assessed
$15,928.40, for a total of $47,785.20. Id. Petitioner
objected to the assessments against her properties,
claiming they exceeded the value of the benefits
thereto. Id.
Pursuant to North Dakota law, Petitioner appealed
the Board’s decision approving the special assessments
to the district court for Morton County, North Dakota.
Id. The district court twice remanded the case to the
City for further findings on the value of the benefits
to Holter’s properties. Id. In issuing its first order of
remand, the district court judge specifically found that:
. . . [t]he record, however, fails to indicate
the amount of ‘the special benefit accruing to
each lot or parcel of land from the improvement.’ As a result, this Court is unable to
determine whether the city erred in its
determination because either the record is
incomplete or the City failed to determined
[sic] ‘the amount in which each of the lots
and parcels of land will be especially benefited . . .
(App.45a)
Following the remand, the district court judge
again found that the record failed to indicate the
value of “‘the special benefit accruing to each lot or

9
parcel of land from the improvement.’ The City is once
again directed to supplement the record to provide
the Court with the method used to decide benefits
and apportion costs to individual properties within
the assessment district at issue in this case.” (App.38a).
In November of 2018, pursuant to the second
remand, the City of Mandan’s Special Assessment
Commission met and determined that under the
City’s Special Assessment Policy, Holter’s properties
were benefited by the amounts assessed against them.
(App.26a). The only additional findings from the
November 2018 meeting stated:
Winks [commissioner] moved in conformance
with the City of Mandan’s Special Assessment
Policy and the methods prescribed therein,
were used to decide the benefits and costs to
the Holter properties/parcel number B20-1,
B20-2 and B20-3 in the amount of $15,928.40
for each parcel and that the parcels are
specially benefitted in that amount by reason
of the improvements in Street Improvement
District 199.

Id.
The district court affirmed the City’s special
assessments against Holter’s properties. (App.34a).
The court concluded the special assessments to Holter’s
properties under the City’s policy were consistent with
the amounts assessed to other properties and were
not arbitrary, capricious, or unreasonable. Id. However,
the district judge’s Memorandum Opinion on Appeal
failed to acknowledge that the formula used by the City
to determine the amounts assessed to the affected
parcels was the same formula the City used to deter-

10
mine the value of the special benefit to each affected
parcel.
Holter appealed the decision of the district court to
the Supreme Court of North Dakota. Holter submitted
her Appellant’s Brief on October 28, 2019. The City
of Mandan submitted its Appellee’s Brief on November
25, 2019, and Petitioner submitted her reply brief on
December 12, 2019. Oral argument was had on January 21, 2020.
On July 22, 2020, the Supreme Court of North
Dakota issued its Opinion affirming the assessments
to Petitioner’s properties. The Opinion specifically
stated that:
. . . the Special Assessment Commission did
more than simply take the total cost of the
project and divide it by using the formula. It
first deducted $225,000 from the costs and
expenses. In doing so, it determined the
benefits for all properties assessed was less
than the total cost of the work. While the
findings by the Special Assessment Commission on the amount of the benefit may be
somewhat conclusory, the amount of the
benefit was determined to be less than the
total cost and was determined to be a just
proportion of the total cost based on the City’s
formula.
(App.11a).
At the oral argument, both Petitioner and the
City of Mandan were represented by counsel. Over
the course of the argument, both attorneys answered
questions from the five Justices of the Supreme
Court of North Dakota. At no time did either party

11
reference the amount of $225,000.00 which was paid
by the City of Mandan. Furthermore, no member of
the court asked any question, or made any comment,
referencing the $225,000.00 which was paid by the
City of Mandan.
In a dissenting opinion, joined by Chief Justice
Jensen, Justice Tufte noted that:
. . . the City calculated its determination of
the benefit to Holter’s property using the
same formula by which it calculated the cost
it assessed to that property. Under the
City’s policy, the benefit determination for a
lot is defined as the unit cost allocation. The
City’s reduction of total assessments by 5%
does not convert what is a cost allocation into
a benefit determination. The City’s policy thus
subverts the express intent of the statute
that costs assessed to a lot be limited to no
more than the benefit. The majority acknowledges the City’s interchangeable use of assessment and benefit but appears to announce
a rule that affirms the City’s direct allocation
of cost because something less than 100% of
the total cost is assessed against the properties in the district.
(App.13a).
The dissent noted that an important statutory
safeguard for property owners was being eliminated,
and that this was, in essence, a deprivation of due
process. Id. This deprivation of due process came
about because the City’s policy makes it “impossible
to arrive at a finding that costs exceeded benefits.”
(App.14a). While a property owner might be able to

12
lodge a challenge to the City’s valuation of the benefit,
that challenge will always be futile. Id.
Justice Tufte went on to note that the majority
opinion went beyond any arguments made by the City.
The dissent expressed that “at no point in this Court
or in the district court did the City ever articulate
[the $225,000.00] deduction as a rationale supporting
its determination of benefit in the special assessment
process.” (App.19a). The City failed to make any
reference to the $225,000.00 reduction of cost at any
point in the litigation. This was true even though the
matter had been remanded twice by the district
court. Justice Tufte rightly noted that this was “the
first instance where this Court, in the absence of any
satisfactory explanation of how a political subdivision determined the amount of benefit to each lot
resulting from a special assessment project, engaged
in its own search of the record to invent an explanation
on behalf of a political subdivision.” (App.19a-20a).
Petitioner filed her petition for rehearing on
August 6, 2020. Petitioner requested rehearing, in part,
to seek an opportunity to respond to the Supreme
Court of North Dakota’s judicially created argument
regarding the $225,000.00 deduction. (App.49a). On
September 21, 2020, the Supreme Court of North
Dakota entered its Order denying the petition for
rehearing. This time, Chief Justice Jensen, joined by
Justice Tufte, dissented to the denial for rehearing.
The dissent contained the following passage:
Paragraph 21 of the majority opinion asserts
“The Special Assessment Commission did
more than simply take the total cost of the
project and divide it by using the formula. It
first deducted $225,000 from the cost and

13
expenses. In doing so, it determined the benefits for all properties assessed was less than
the total cost of the work.” What paragraph
21 of the majority opinion omits is recognition
that the City never advanced that argument
in this Court or in the district court. This
Court, not the City, articulated the $225,000
deduction as a rationale supporting the City’s
determination of benefit in the special assessment process. There is not a single reference
to the $225,000 dollar reduction of costs and
expenses in the City’s brief to this Court. The
record does not reflect the City ever advancing the rationale articulated by this Court as
a justification or an explanation to the district court — not in the first appeal to the
district court, and not after either of the two
district court remands to the City demanding
an explanation of the benefits. The petition,
in part, seeks an opportunity to address the
rationale of this Court, an opportunity that
Holter has never been given because the
rationale was never advanced by the City
and was first articulated in the opinion of
this Court issued subsequent to the briefing
and oral argument.
(App.49a).
Petitioner now seeks a Writ of Certiorari from
this honorable Court.

14

REASONS FOR GRANTING THE PETITION
I.

TO AVOID FURTHER VIOLATIONS OF THE FIFTH
AMENDMENT’S TAKINGS CLAUSE, THIS COURT
SHOULD CLARIFY THAT SPECIAL ASSESSMENTS
MUST CONSIDER THE VALUE OF THE SPECIAL
BENEFITS TO A PARTICULAR PARCEL OF PROPERTY
INDEPENDENTLY OF THE AMOUNTS ASSESSED TO
THAT PARCEL OF PROPERTY OR THE COSTS OF THE
PROJECT BORNE BY THE ASSESSING AUTHORITY.

This Court should grant this Petition so that it
may clarify that determinations of special assessments
must take into account the peculiar benefit accruing
to the assessed property without regard to the costs
of the improvement to be assessed to the property or
consideration of the costs borne by the public. This
would distill Takings Clause jurisprudence to the core
principal that, in the context of public improvements,
the Constitution is first concerned with the rights of
private property owners. If the Judgment of the
Supreme Court of North Dakota is allowed to stand,
it may very well provide a road map for other jurisdictions to justify extravagant projects and to assess
those costs to individual landowners, regardless of
whether they receive an equivalent benefit. This is
already the practical effect of the decision in North
Dakota.
In its Village of Norwood v. Baker decision, this
Court stated that:
. . . the principle underlying special assessments to meet the cost of public improvements

15
is that the property upon which they are
imposed is peculiarly benefited, and, therefore,
the owners do not, in fact, pay anything in
excess of what they receive by reason of
such improvement. But the guaranties for
the protection of private property would be
seriously impaired, if it were established as
a rule of constitutional law that the imposition
by the legislature upon particular private
property of the entire cost of a public
improvement, irrespective of any peculiar
benefits accruing to the owner from such
improvement, could not be questioned by
him in the courts of the country. It is one
thing for the legislature to prescribe it as a
general rule that property abutting on a
street opened by the public shall be deemed
to have been specially benefited by such
improvement, and, therefore, should specially
contribute to the cost incurred by the public.
It is quite a different thing to lay it down as
an absolute rule that such property, whether
it is in fact benefited or not by the opening
of the street, may be assessed by the front
foot for a fixed sum, representing the whole
cost of the improvement, and without any
right in the property owner to show, when
an assessment of that kind is made, or is
about to be made, that the sum so fixed is in
excess of the benefits received.

Village of Norwood v. Baker, 172 U.S. 269, 278-79
(1898).

In theory, the benefits conferred to the property
abutting the improvement should be full compensation

16
for the expense the taxing authority assesses to that
property, so that the owner suffers no pecuniary loss.
§ 38:6. Nature of special assessment or taxation—
Benefit conferred theory, 14 McQuillin Mun. Corp.
§ 38:6 (3d ed.)(internal citations omitted). To levy an
assessment against an abutting property in excess of
the benefit the improvement provides to that property
is shifting the cost of the improvement from the public,
who presumably benefits from the improvement, to
the owner of the abutting property. It amounts to a
confiscation of that owner’s property under the guise
of taxation.
In the instant case, Petitioner objected to her
assessments because the City failed to make any
findings as to how much the improvements would
benefit her property, if any. (App.3a). Nothing in the
record showed that specific findings of benefit values
had been made for any properties within the Street
Improvement District. The record showed only (a)
what the cost of the project was, (b) how much of
those costs were paid by the City, and (c) the amounts
assessed to each parcel within the Street Improvement District. The district court recognized this
and remanded the matter to the City on two separate
occasions. Id. After each remand, the City failed to
offer any evidence that the value of the benefit to
Petitioner’s property had been determined. The only
additional finding made by the Special Assessment
Commission was to say that they had acted in accordance with the Special Assessment Policy. (App.4a)
North Dakota precedent notes that, in a case
involving an appeal from a decision of a local governing
body, a court’s review is limited so “that the court
does not substitute its judgment for that of the local

17
governing body which initially made the decision. In
an appeal . . . the record is adequate to support the
findings and conclusions of the board if it allows us
to discern the rationale for the decision.” Dahm v.
Stark County Board of County Commissioners, 841
N.W.2d 416 (N.D. 2013). Despite the fact that the
record was devoid of any evidence pertaining to a
finding of the value of the special benefit to Petitioner’s
properties, the district court affirmed the City’s decision. Petitioner was given an appeal in name only.
The district court failed to address the fact that the
City had not made any determination of the special
benefits to Petitioner’s properties, or that if the City
had made such a determination, it did so based on
the exact same formula as it used to assess the costs
to her properties.
Petitioner’s appeal to the Supreme Court of North
Dakota was similarly futile but had far broader
implications. On appeal, Petitioner continued to argue
that the City had failed to determine the value of the
benefits to Petitioner’s properties and that the City’s
alleged method of benefit determination was nothing
more than an allocation of costs. Petitioner argued
that the formulas for benefit valuation and for cost
allocation were one-in-the-same. The City argued that
its policy was allowed to be based on front footage,
and that it was similar to other policies throughout
the state. At oral argument, the City conceded that
the formula used to determine the value of the benefit to a parcel in the Street Improvement District was
the same formula it used to determine the amount to
be assessed to a parcel in the Street Improvement
District. (App.13a). In the end, none of these arguments swayed the Supreme Court of North Dakota.

18
The rationale for the majority’s affirmance of the
City’s assessments to Petitioner’s properties is found
in paragraph 21 of the Supreme Court of North
Dakota’s opinion, which reads:
Although the City’s determination of benefits
and assessments is based on a formula
similar to others upheld by this Court, this
case does raise some concerns. Under the
City’s policy, the terms “benefit” and
“assessment” appear to be used interchangeably, which may explain why the
special assessment commission determined
the amount of the benefit to Holter’s properties equaled the amounts assessed to them.
However, the Special Assessment Commission did more than simply take the total
cost of the project and divide it by using the
formula. It first deducted $225,000 from the
costs and expenses. In doing so, it determined the benefits for all properties assessed
was less than the total cost of the work.
While the findings by the Special Assessment
Commission on the amount of the benefit may
be somewhat conclusory, the amount of the
benefit was determined to be less than the
total cost and was determined to be a just
proportion of the total cost based on the City’s
formula.
(App.11a).
The City did not argue that, because it had
deducted $225,000.00 from the total costs of the
project, it had determined the benefit to the properties
in the Street Improvement District. In fact, the number
“$225,000.00” did not appear in any filing or submission

19
authored by any party to this case. It did not appear
in any order from the district court. Paragraph 21 of
the majority opinion was the first time this rationale
had been set forth in the proceedings.
The dissenting opinion correctly noted that the
majority opinion erred in “reasoning that by deducting
a modest percentage of the total project cost from the
total amount assessed, the City had decoupled cost
and benefit” and inferred that the City “determined
the benefits for all properties assessed was less than the
total cost of the work.” (App.16a). The majority and
dissent conceded that the City used the terms “benefit”
and “assessment” interchangeably.
In the instant case, it is uncontested that the
City uses the exact same formula to determine the
alleged benefit to an assessed property, as well as
the amount which will be assessed to that same
property. The City’s formula took the total costs of
the improvement, subtracted a nominal amount that
was paid by the City, and then determined the amount
of the remainder to be assessed to each parcel within
the Street Improvement District. The dissent properly
reasoned that this was an absurdity because if the
costs of the project doubled, so too would the alleged
benefit. (App.17a-18a). This also necessarily meant
that, under the majority opinion, no challenge to a
special assessment levied using the City’s methods
could be challenged. Justice Tufte’s dissent deftly
addressed this point and its perils; noting that
“because N.D.C.C. § 40-23-07 requires the benefit to
be compared to allocated cost, the benefit determination may not be calculated by the same formula that
allocates cost.” (App.17a).

20
As interpreted and approved by the majority of
the Supreme Court of North Dakota, the City’s policy,
and the assessments on Petitioner’s lots, amounts to an
absolute rule that the properties abutting the assessment may be assessed by the front foot for a fixed
sum without any right for Petitioner to show that the
assessed sum is in excess of the benefits received.
This is because it is impossible for the City’s formula
to ever assess an amount greater than the benefit
conferred. This is a direct contravention of this Court’s
Norwood precedent. As such, this Petition should be
granted.
II.

THE SUPREME COURT OF NORTH DAKOTA ABUSED
ITS DISCRETION BY ACTING AS AN ADVOCATE FOR
THE CITY OF MANDAN AND, IN DOING SO, VIOLATED
THE DUE PROCESS CLAUSE OF THE FOURTEENTH
AMENDMENT TO THE UNITED STATES CONSTITUTION
AND THE FEDERAL PRECEDENT RECENTLY ARTICULATED IN UNITED STATES V. SINENENG-SMITH.
A. Due Process Concerns

In deciding Petitioner’s appeal on grounds not
advanced by either party to the action, and in denying
her petition for rehearing so that she could not have
an opportunity to address their rationale, the Supreme
Court of North Dakota discarded its role as a neutral
arbiter and took on the role of an advocate for the
City. Petitioner was not given notice that the Supreme
Court of North Dakota would entertain arguments or
rationales that had not been advanced at any other
point in the litigation. This denied her the chance to
have a hearing to address that argument and to present
a case in opposition to the same. By affirming the
special assessments against her properties on grounds

21
not advanced by the parties, and by refusing to let
her be heard with regard to those grounds, Petitioner
has been deprived of her property without due process
of law.
Where a state law is challenged on due process
grounds, this Court reviews whether the state has
deprived the claimant of a protected property interest,
and whether the State’s procedures comport with
due process. Am. Mfrs. Mut. Ins. Co. v. Sullivan, 526
U.S. 40, 42, 119 S.Ct. 977, (1999). The touchstone of due
process under the Fourteenth Amendment is notice
and an opportunity to be heard.
Petitioner has a protected property interest in
the assessed real estate, and in the funds to be paid
to the City pursuant to the special assessments. By
denying Petitioner the opportunity to be heard on
the merits it raised sua sponte, the Supreme Court of
North Dakota failed to provide Petitioner due process
of law. The majority decision, if allowed to stand, will
deprive her of her protected property interest.
B. Public Policy Concerns
In his opinion dissenting on the denial of the
petition for rehearing, Supreme Court of North Dakota
Chief Justice Jon J. Jensen specified that:
The petition, in part, requests an opportunity
to address the rationale underlying the
majority’s affirmance of the special assessment. Paragraph 21 of the majority opinion
asserts “the Special Assessment Commission
did more than simply take the total cost of
the project and divide it by using the formula.
It first deducted $225,000 from the costs and

22
expenses. In doing so, it determined the benefits for all properties assessed was less than
the total cost of the work.” What paragraph
21 of the majority opinion omits is recognition that the City never advanced that argument in this Court or in the district court.
This Court, not the City, articulated the
$225,000 deduction as a rationale supporting
the City’s determination of benefit in the
special assessment process. There is not a
single reference to the $225,000 reduction of
costs and expenses in the City’s brief to this
Court. The record does not reflect the City
ever advancing the rationale articulated by
this Court as a justification or an explanation to the district court—not in the first
appeal to the district court, and not after
either of the two district court remands to
the City demanding an explanation of the
benefits. The petition, in part, seeks an opportunity to address the rationale of this Court,
an opportunity Holter has never been given
because the rationale was never advanced
by the City and was first articulated in the
opinion of this Court issued subsequent to
the briefing and oral argument.
(App.49a).
Chief Justice Jensen worried that “a decision
founded on rationale never advanced by the taxing
authority, without providing a taxpayer an opportunity
to respond, makes this Court ‘little more than an
apologist for the actions of the executive branch of
government.’” (App.50a).

23
This dissent touches on just a few of the numerous
considerations of public policy which are strengthened
by a stronger and more rigid principle of party presentation. The U.S. Court of Appeals for the District of
Columbia Circuit has addressed the roles of the courts
and litigants in appellate procedures by noting that:
The premise of our adversarial system is that
appellate courts do not sit as self-directed
boards of legal inquiry and research, but
essentially as arbiters of legal questions
presented and argued by the parties before
them. Thus, Rule 28(a)(4) of the Federal Rules
of Appellate Procedure requires that the
appellant’s brief contain “the contentions of
the appellant with respect to the issues presented, and the reasons therefor, with citations to the authorities, statutes and parts
of the record relied on.” Failure to enforce
this requirement will ultimately deprive us
in substantial measure of that assistance of
counsel which the system assumes—a deficiency that we can perhaps supply by other
means, but not without altering the character
of our institution. Of course not all legal
arguments bearing upon the issue in question
will always be identified by counsel, and we
are not precluded from supplementing the
contentions of counsel through our own deliberation and research. But where counsel has
made no attempt to address the issue, we will
not remedy the defect, especially where, as
here, “important questions of far-reaching
significance” are involved.

24

Carducci v. Regan, 714 F.2d 171, 177 (D.C. Cir. 1983)

(internal citations omitted). The North Dakota Rules of
Appellate Procedure closely mirrors the Federal Rules
and the Carducci Court’s discussion is instructive.

At its essence, the principle of party presentation
allows parties to have confidence that a court will
decide their dispute without favoritism, that the roles
of the court and counsel will be consistent, and that a
court will not provide assistance to one party at the
detriment of another. Further, it preserves judicial
and party resources by narrowing the issues, evidence,
and arguments before the courts. Deciding cases on
the issues and theories advanced by the parties also
avoids creating a perception that the courts are
engaging in judicial activism. This is as true in federal
courts as it is in state courts. As articulated above,
the principle also strengthens constitutional due process guarantees by ensuring that parties are given an
opportunity to address substantive and dispositive
issues which may be raised by a court after briefing.
Justice Tufte’s dissent to the majority opinion
observed that the Supreme Court of North Dakota
had gone looking for facts and arguments to invent a
justification for the determination of the political subdivision. (App.19a-20a). This speaks loudly to the notion
that such a decision erodes confidence in the impartiality of the judiciary. This is especially true when a case
concerns the decisions of another governmental entity.
C. Federal Precedent
In general, courts rely on parties to frame issues
for decision and assign courts the role of neutral arbiter
of the matters the parties present. Greenlaw v. United
States, 554 U.S. 237, 243 (2008). “To the extent courts

25
have approved departures from the party presentation
principle . . . the justification has usually been to
protect a pro se litigant’s rights.” Id. While this Court
has also noted that “[w]hen an issue or claim is
properly before the court, the court is not limited to
the particular legal theories advanced by the parties,
but rather retains the independent power to identify
and apply the proper construction of governing law,”
the Supreme Court of North Dakota’s decision in this
matter fails to clear the bar; as it failed to apply the
proper construction of governing law.
This Court has more recently reinforced the
importance of the principle of party presentation in
its United States v. Sineneng-Smith decision. United
States v. Sineneng-Smith, 140 S.Ct. 1575. In SinenengSmith, a unanimous Court held that courts “do not,
or should not, sally forth each day looking for wrongs to
right. [They] wait for cases to come to [them], and when
[cases arise, courts] normally decide only questions
presented by the parties. Id. (citing United States v.
Samuels, 808 F.2d 1298, 1301 (CA8 1987).
While the Sineneng-Smith and Greenlaw decisions
arose out of, and were applicable to, federal cases,
there is an open question as to whether or not a state
court of last resort is beholden to these same principles.
The Supreme Court of North Dakota’s decision to deny
rehearing necessarily means that Petitioner has no
other state recourse to address this constitutional
issue. While this is absolutely appropriate when the
litigants have been able to address the arguments
upon which the court decided the dispute, it is far
less appropriate when the court has substituted its
own argument for the parties’ and has not given them
an opportunity address the same. The instant case

26
has been competently and zealously litigated by the
parties. Both the Petitioner and the City were represented by counsel at each stage of the litigation. As
such, Greenlaw’s departure for pro se litigants is
inapplicable.
It is indisputable that the City never mentioned,
much less relied upon, the $225,000.00 payment as a
means of calculating the benefit to Petitioner’s properties. The dissenting opinions of Chief Justice Jensen
and Justice Tufte express great concern about the
consequences of the Supreme Court of North Dakota’s
departure from normal appellate procedures. The
majority’s opinion in this case inappropriately substituted its argument for the City’s. In this matter, it
sallied forth looking for a right to wrong and, in doing
so, denied Petitioner of notice and hearing while
wrongly deciding a takings case.
Because this case raises considerable due process
and public policy concerns, and because the decision
of the Supreme Court of North Dakota contravenes
existing federal precedent, this Petition should be
granted.

27

CONCLUSION
For the foregoing reasons, Petitioner Deborah
Holter respectfully requests that this Court issue a writ
of certiorari to review the judgment of the Supreme
Court of North Dakota.
Respectfully submitted,
GREGORY C. LARSON

COUNSEL OF RECORD

WILLIAM C. BLACK
LARSON LATHAM HUETTL LLP
1100 COLLEGE DRIVE
P.O. BOX 2056
BISMARCK, ND 58502-2056
(701) 223-5300
GLARSON@BISMARCKLAW.COM

COUNSEL FOR PETITIONER

DECEMBER 18, 2020

